NO.

IN THE SUPREME COURT OF THE UNITED STATES

Charles L. Burgett - Petitioner
vs.

The General Store No. Two Inc., d/b/a/ Marsh's Sunfresh Market, et al. - Respondents
PROOF OF SERVICE
I, Charles L. Burgett, do declare that on this date, March 12, 2021, as required by
Supreme Court Rule 29,1 have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage
prepaid.
The names and addresses of those served are as follows:
Ryan E. Karaim, 8900 Ward Parkway, Kansas City, MO 64114, 816-421-7100, Attorney
for respondent the General Store No. Two Inc., d/b/a/ Marsh's Sunfresh Market
Meagan L. Blackwell-Patterson, 5000 West 95th Street, Suite 350, Prairie Village, KS
66207, 913-749-0300, Attorney for respondents W.S.C. Services, Inc., and Andrei Florea
Nicolas Taulbee, 615 E. 13th Street, Suite 401, Kansas City, Missouri 64106, 816-8895000, Attorney for respondents Thomas Bethel, Terry Grimmett and Matthew Payne
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 12, 2021

Charles L. Bur ^RECEIVED

MAR 1 6 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

